U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Vahan Kelerchian v. United States of America,
S.Ct. No. 19-782

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
20, 2019, and placed on the docket on December 18, 2019. The government's response is due on
January 17, 2020.
We respectfully request, under RuIe30.4 of the rules of this Court, an extension of time
to and including February 18, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0782
KELERCHIAN, VAHAN
USA

KERRY C. CONNOR
ATTORNEY AT LAW
9013 INDIANAPOLIS BLVD.
SUITE C
HIGHLAND, IN 46321
219-972-7111
KCCONNOR@SBCGLOBAL.NET
J. MICHAEL KATZ
THE LAW OFFICES OF J. MICHAEL KATZ
9013 INDIANAPOLIS BLVD.
HIGHLAND, IN 46321
219-838-9200
JMK4LAW@AOL.COM

